           Evaluation Report



Fiscal Year 2013 Risk Assessment of
the Social Security Administration’s
       Charge Card Programs




       A-13-14-14055 | January 2014
MEMORANDUM


Date:      January 30, 2014                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Fiscal Year 2013 Risk Assessment of the Social Security Administration’s Charge Card
           Programs (A-13-14-14055)

           The attached final report presents the results of our review. Our objective was to analyze the risk
           of illegal, improper, and erroneous purchases made through the Social Security Administration’s
           charge card programs.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Fiscal Year 2013 Risk Assessment of the Social Security
Administration’s Charge Card Programs
A-13-14-14055
January 2014                                                             Office of Audit Report Summary

Objective                                Our Conclusions

To analyze the risk of illegal,          This report addresses the requirement that we complete a risk
improper, and erroneous purchases        assessment of the Social Security Administration’s (SSA) charge
made through the Social Security         card programs. SSA has both purchase and travel card programs
Administration’s charge card             and uses centrally billed accounts (CBA) for travel. In Fiscal Year
programs.                                (FY) 2013, SSA reported about $59 million in purchase card use
                                         and about $14 million in travel card expenses. SSA does not use
Background                               convenience checks or integrated charge cards, so our risk
                                         assessment only addresses purchase cards, travel cards, and CBAs.
On October 5, 2012, the President
signed into law the Government           SSA has policies and procedures in place to address the
Charge Card Abuse Prevention Act of      requirements in the Act regarding its charge card programs. These
2012 (Pub. L. No. 112-194) (Act),        policies and procedures are designed to reduce the risk of illegal,
which reinforced efforts to prevent      improper, and erroneous purchases made using the charge cards.
waste, fraud, and abuse in               Also, SSA has internal controls in place to assist in overseeing its
Government-wide charge card              charge card programs.
programs.
                                         In 2010, we audited SSA’s purchase card program. Based on those
This Act requires that all Executive     audit findings, the Agency’s reported corrective actions taken in
Branch agencies implement internal       response to our audit, and the various data reviewed, we believe the
controls for purchase cards, travel      risk associated with SSA’s use of purchase cards is “low.”
cards, integrated cards, and centrally
billed accounts. It also establishes     SSA has policies and procedures in place regarding use of travel
additional reporting and audit           cards and CBAs. We will initiate an audit of the Agency’s travel
requirements. Under the Act,             card program in FY 2014.
Inspectors General are tasked, among
other things, with conducting periodic
risk assessments of agencies’ purchase
card or convenience check programs to
identify and analyze risks of illegal,
improper, or erroneous purchases and
payments. Similarly, Inspectors
General of executive agencies with
more than $10,000,000 in travel card
spending are required to conduct
periodic audits or reviews of travel
card programs to analyze risks of
illegal, improper, or erroneous
purchases and payments.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Analysis ..........................................................................................................................2
     Purchase Card Assessment ........................................................................................................2
           Policies and Procedures .......................................................................................................3
           Additional Internal Controls ................................................................................................3
           Delinquent Accounts and Disciplinary Actions ...................................................................4
           Prior Audit Report................................................................................................................4
     Travel Card Assessment ............................................................................................................5
           Policies and Procedures .......................................................................................................5
           Additional Internal Controls ................................................................................................6
           Delinquent Accounts and Disciplinary Actions ...................................................................6
Conclusions ......................................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Requirements of the Government Charge Card Abuse Prevention Act of 2012 for
           Purchase Cards ....................................................................................................... B-1
Appendix C – Requirements of the Government Charge Card Abuse Prevention Act of 2012 for
           Travel Cards and Centrally Billed Accounts ......................................................... C-1
Appendix D – Status of the Social Security Administration’s Corrective Action on Prior
           Recommendations .................................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)
ABBREVIATIONS
AIMS                Administrative Instructions Manual System

ATM                 Automated Teller Machine

CBA                 Centrally Billed Account

FMM                 Financial Management Manual

FY                  Fiscal Year

MRM                 Materiel Resources Manual

OAG                 Office of Acquisition and Grants

OFPO                Office of Financial Policy and Operations

OIG                 Office of the Inspector General

SSA                 Social Security Administration




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)
OBJECTIVE
Our objective was to analyze the risk of illegal, improper, and erroneous purchases made through
the Social Security Administration’s (SSA) charge card programs.

BACKGROUND
On October 5, 2012, the President signed into law the Government Charge Card Abuse
Prevention Act of 2012 1 (Act), which reinforced efforts to prevent waste, fraud, and abuse in
Government-wide charge card programs. This Act requires that all Executive Branch agencies
implement safeguards and internal controls for purchase cards, travel cards, integrated cards, and
centrally billed accounts (CBA). 2 The Act also requires that the Director of the Office of
Management and Budget (OMB) review existing guidance and, as necessary, prescribe
additional guidance governing the implementation of the requirements set forth in the Act, and
establish additional agency reporting and audit requirements. 3

Under the Act, Inspectors General are tasked, among other things, to

•         conduct periodic risk assessments of agencies’ purchase card or convenience check
          programs; 4
•         identify and analyze the risks of illegal, improper, or erroneous purchases and payments; and
•         develop a plan for using such risk assessments to determine the scope, frequency, and
          number of periodic audits of purchase card or convenience check transactions. 5

Similarly, Inspectors General of executive agencies with more than $10,000,000 in travel card
spending are required to conduct periodic audits or reviews of travel card programs to analyze
risks of illegal, improper, or erroneous purchases and payments. 6 The findings of such audits or
reviews along with recommendations to prevent improper use of travel cards are required to be
reported to the Director of OMB and Congress. 7




1
    Pub. L. No. 112-194 §§ 2-4, 126 Stat. 1445-1451 (2012).
2
    Id.
3
  Id. OMB Circular A-123, Appendix B, Improving the Management of Government Charge Card Programs,
(Revised January 2009), prescribes policies and procedures regarding how to maintain internal controls that reduce
the risk of fraud, waste, and error in government charge card programs. See OMB A-123, App. B, Cover
Memorandum.
4
    SSA does not use convenience checks or integrated charge cards.
5
    Pub. L. No. 112-194 § 2, 126 Stat. 1447 (2012).
6
    Pub. L. No. 112-194 § 3, 126 Stat. 1450 (2012).
7
    Id.



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                                       1
As of October 2013, SSA had 2,848 active purchase cardholders and 23,853 active travel
cardholders. We reviewed various sources of information to determine whether, at the time of
our review, SSA’s internal controls complied with the Act and were designed to reduce the risk
of illegal, improper, or erroneous purchases in the Agency’s charge card programs. See
Appendix A for our scope and methodology.

Components within SSA’s Office of the Deputy Commissioner for Budget, Finance, Quality and
Management oversee the Agency’s charge card programs. The Office of Acquisition and Grants
(OAG) manages the Government purchase card program, and the Office of Financial Policy and
Operations (OFPO) manages the travel card program.

RESULTS OF ANALYSIS
This report addresses the requirement that we complete a risk assessment of the Social Security
Administration’s (SSA) charge card programs. SSA has both purchase card and travel card
programs and uses centrally billed accounts (CBA) for travel. In Fiscal Year (FY) 2013, SSA
reported about $59 million in purchase card use and about $14 million in travel card expenses.
Additionally, SSA reported 27,054 individuals used their travel cards with a range of charges
between $.01 and $7,464, and a yearly average use per person of $508. SSA does not use
convenience checks or integrated charge cards, so our risk assessment only addresses purchase
cards, travel cards, and CBAs.

SSA has policies and procedures in place to address the requirements in the Act regarding its
charge card programs. These policies and procedures were designed to reduce the risk of illegal,
improper, and erroneous purchases made using the charge cards. Also, SSA has internal controls
in place to assist in overseeing its charge card programs.

In 2010, we audited SSA’s purchase card program. 8 Based on the findings from that audit, the
Agency’s reported corrective actions taken in response to our audit, and the various data
reviewed, we believe the risk associated with SSA’s use of purchase cards is “low.”

SSA has policies and procedures in place regarding use of travel cards and CBAs. We will
initiate an audit of SSA’s travel card program in FY 2014.

Purchase Card Assessment
To assess the risk of illegal, improper, and erroneous purchases made through SSA’s
Government purchase card program, we reviewed SSA’s policies and procedures, additional
internal controls, delinquent accounts, and disciplinary actions. SSA has policies and procedures
designed to reduce the risk of illegal, improper, and erroneous purchases made using purchase
cards. In addition, we reviewed information from our prior audit of SSA’s Government purchase


8
 SSA OIG, The Social Security Administration’s Government Purchase Card Program, (A-13-09-29027),
March 25, 2010



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                      2
card program. Based on the data reviewed, we believe the risk associated with purchases made
using purchase cards is “low.”

Policies and Procedures
SSA has policies and procedures in place to address applicable internal control requirements
identified in the Act regarding purchase cards (see Appendix B for Act requirements). Many of
the Act’s requirements are documented in SSA’s 2013 Purchase Card Management Plan. As
required, 9 the Plan outlines the Agency’s policies and procedures critical to managing its
program. One requirement of the Act calls for agencies to “. . . use effective systems,
techniques, and technologies to prevent or identify illegal, improper, or erroneous purchases.”
Through our review of the Purchase Card Management Plan, and discussions with SSA staff, we
determined SSA uses a variety of systems, techniques, and technologies to prevent or identify
such purchases. For example, the Purchase Card Management Plan indicates SSA uses a tool to
identify split purchases made by purchase cardholders. A split purchase is defined as multiple
purchase transactions—totaling over the $3,000 micro-purchase dollar threshold—made by the
same purchase cardholder to the same vendor on the same day.

OAG staff provided an example of a report generated using the split purchase tool. Using
information in the report and additional data analysis, staff determines whether transactions were
true split purchases. When the assessments are complete, staff documents its conclusions in an
email to the purchase cardholder. OAG staff provided an example of an email in which an
employee was reprimanded for completing a split purchase. The decision states, “We
determined that your single order was a split purchase . . . The purchase includes shipping
charges that makes the total of your purchase exceed your delegated acquisition authority of
$3,000 per single transaction. We will contact your approving official regarding additional
documentation needed to ratify this purchase.” SSA’s use of the split purchase tool and other
techniques identified in the Purchase Card Management Plan helps the Agency prevent or
identify illegal, improper, or erroneous purchases.

We also found relevant policy and procedure-related information on OAG’s Intranet Website and
Administrative Instructions Manual System. The policies and procedures on the Website and in
the Manual were intended to reduce the risk of illegal, improper, or erroneous purchases
occurring in the Agency’s charge card program.

Additional Internal Controls
In addition to policies and procedures addressing statutory requirements, SSA had internal
controls in place to assist it in managing purchase cards. In its 2013 Purchase Card Management
Plan, SSA documented several examples of these controls as best practices and methods
effective in managing risk.



9
    OMB, A-123, App. B (Revised January 2009).



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                   3
For example, the Act requires that “appropriate training” be provided to each purchase
cardholder and each official with responsibility for overseeing the use of purchase cards. 10 In
addition, OMB Circular A-123, Appendix B requires that staff take refresher training at least
every 3 years. 11 SSA’s policies and procedures have an additional control to ensure staff takes
refresher purchase card training. If cardholders do not timely complete the training, SSA
suspends their acquisition authority and deactivates their purchase cards until they certify they
have completed the training. 12

In addition, SSA issues Acquisition Alerts to remind employees to comply with existing policies
and regulations and inform cardholders about new policies and regulations. SSA posts these
Alerts to its Intranet site. For example, SSA published an Alert on September 30, 2013 titled,
Prohibitions on Making Purchases During the Government Furlough. The Alert reminded
micro-purchasers that they could not purchase supplies or services while the Government
shutdown was in effect.

Delinquent Accounts and Disciplinary Actions
We requested information regarding delinquent purchase card accounts and disciplinary actions
taken against purchase cardholders for the period October 1, 2011 through June 30, 2013. Staff
reported there were no delinquent accounts during the period, and no disciplinary actions had
been taken against employees for misusing the card. Our Office of Investigations reported it had
not initiated any investigative cases for alleged purchase card misuse for the same period.

Prior Audit Report
In 2010, we issued a report on SSA’s charge card program. 13 During the audit, we found
cardholders did not always comply with SSA’s policies and procedures. Our testing of purchase
card transactions found 36 of 50 transactions reviewed (a) did not have adequate pre-approval
documentation; (b) had no documentation that the goods were received and accepted; and/or
(c) had no documentation provided. These transactions totaled about $8,300. In addition, for
12 of 50 possible split purchases we examined, the cardholders circumvented their
$3,000 single-purchase limit. These purchases totaled about $61,000.

We provided SSA with four recommendations to address the deficiencies noted. SSA agreed
with our recommendations. The recommendations were closed as of December 2010. We plan
to initiate a follow-up review of the Agency’s use of purchase cards in FY 2014. See
Appendix D for information regarding the recommendations.



10
     Pub. L. No. 112-194 § 2, 126 Stat. 1446 (2012)
11
     OMB, A-123, App. B, 3.4 (Revised January 2009).
12
     SSA’s Purchase Card Management Plan, 3.1 (2013).
13
 SSA OIG, The Social Security Administration’s Government Purchase Card Program (A-13-09-29027),
March 25, 2010.



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                      4
Travel Card Assessment
To assess the risk of illegal, improper, and erroneous purchases made through SSA’s travel card
program, we reviewed SSA’s policies and procedures, additional internal controls, delinquent
accounts, and disciplinary actions. SSA has policies, procedures, and additional internal controls
designed to reduce the risk of illegal, improper, and erroneous purchases made through its travel
card program, including its CBAs. We will initiate an audit of the Agency’s travel card program
in FY 2014.

Policies and Procedures
SSA has policies and procedures in place to address applicable requirements identified in the Act
regarding travel cards and CBAs (see Appendix C for Act requirements). Many of the
requirements in the Act are documented in SSA’s 2013 Travel Card Management Plan. As
required by OMB Circular A-123, Appendix B, 14 this Plan outlines the Agency’s policies and
procedures critical to assuring that a system of internal controls is followed, and to minimize the
potential for fraud, misuse, and delinquency. One requirement of the Act calls for agencies to
have “. . . policies to ensure its contractual arrangement with each travel charge card issuing
contractor contains a requirement that the creditworthiness of an individual be evaluated before
the individual is issued a travel charge card . . . .” 15 Through our review of SSA’s 2013 Travel
Card Management Plan and discussions with SSA staff, we determined the Agency was
complying with this requirement. SSA’s policy states, “The employee has the right to either
consent or not consent to a credit check. If the employee consents, he/she will complete the
consent application provided by our contractor bank, Citibank. Citibank will then perform the
credit check. If the employee scores 660 or above, he/she receives a standard agency travel card.
If the employee scores below 660, a Level 1 Agency Program Coordinator notifies the employee
via email. He/she receives a restricted travel card.” 16

SSA also has policy and procedure-related information on OFPO’s Intranet site and
Administrative Instructions Manual System 17 that provide internal controls designed to reduce
the risk of illegal, improper, or erroneous purchases occurring in the Agency’s travel charge card
program.

The Act also requires that agencies “. . . ensure that officials with the authority to approve
official travel verify that CBA charges are not reimbursed to an employee.” 18 The Agency’s
CBA is used to pay air or rail transportation fares. Examples of situations in which an SSA


14
     OMB, A-123, App. B, 2.2 (Revised January 2009).
15
  Pub. L. No. 112-194 § 3, 126 Stat. 1449 (2012). OMB, A-123, App. B, 6., supra, also requires assessment of the
credit worthiness of all new travel charge applicants prior to issuing the card.
16
     SSA’s Travel Card Management Plan, 2.2 (2013).
17
     SSA, AIMS, FMM 07.32.00 (June 2010) and 07.08.00 (November 2010).
18
     Pub. L. No. 112-194 § 4, 126 Stat. 1450 (2012).



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                                     5
employee will use the CBA are when he/she has not received the requested travel card in time to
make reservations, is granted an exception from the travel card program, needs to secure a
special fare in advance of travel, or is traveling on international travel. Policy states, “When a
ticket is charged to the CBA, the traveler does not incur the expense, nor should the traveler be
reimbursed for it on the travel voucher.” 19

On November 20, 2013, we discussed with OFPO staff situations where SSA reimbursed
employees for travel costs billed to the CBA. According to staff, such occurrences were rare.
OFPO staff explained these instances typically occur with new employees and those less
experienced with Government travel. In these situations, staff explained employees were
required to reimburse the Agency for the ticket cost.

Additional Internal Controls
In addition to policies and procedures addressing statutory requirements, SSA has internal
controls in place to assist in managing its travel cards. In its 2013 Travel Card Management
Plan, SSA documented several examples of these controls as best practices and methods
effective in managing risk.

For example, SSA policy places restrictions on automated teller machine (ATM) withdrawals.
Travel cardholders may only withdraw 13 percent of their credit limit in cash per month or
30 percent of their credit limit if the card is restricted. These withdrawals are further limited in
that the total amount of ATM withdrawals in 1 day cannot exceed $400, and the total amount of
ATM withdrawals in 1 week cannot exceed $600. 20

OMB Circular A-123, Appendix B, recommends agencies keep current on new and innovative
solutions to detect and prevent misuse and fraud, such as restricting travel card spending limits
during expected periods of inactivity. 21 SSA policy states, “Some components/regions within the
agency reduce the credit limit of cardholders who are not in travel status to $1, which makes it
impossible for cardholders to misuse their cards.” 22 Based on data provided by OFPO staff, we
determined there were 10,816 travel cardholders whose credit limits had been reduced to $1 as of
October 28, 2013.

Delinquent Accounts and Disciplinary Actions
We obtained and reviewed information regarding delinquent travel card accounts and
disciplinary actions against travel cardholders for the period October 1, 2011 through
June 30, 2013. Staff reported there were delinquent travel card accounts each month. Over the



19
     SSA’s Travel Update Special Edition E2 Solutions, page 3 (March 2009).
20
     SSA’s Travel Card Management Plan, 4.5 (2013).
21
     OMB, A-123, App. B, Attachment 5 (Revised January 2009).
22
     SSA’s Travel Card Management Plan, 4.5 (2013).



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                         6
21-month period, the number of delinquent travel card accounts ranged from 3 to 112, with the
highest number occurring in January 2013. 23 The highest occurrence of delinquency represents
only 0.47 percent of the total number of travel card accounts. In its 2013 Travel Card
Management Plan, SSA reports, “The agency has an outstanding delinquency rate, consistently
one of the lowest delinquency percentages in Government . . . .” 24 Agency policy also states
CBAs are certified and paid in full within 30 days. Therefore, there are no occurrences of
delinquency for those accounts. 25

During our review period, SSA staff reported 42 disciplinary actions against employees for
inappropriate use 26 of the travel card: suspended 24, reprimanded 9, counseled 6,
terminated/removed 2, and demoted 1. Also, two employees resigned with disciplinary actions
pending.

Our Office of Investigations reported no investigative cases for alleged travel card or CBA
misuse for the period October 1, 2011 through June 30, 2013. We intend to initiate an audit of
the travel card program in FY 2014. During that audit, we will apply fieldwork standards for
performance audits, including those pertaining to assessing risk.

CONCLUSIONS
SSA has policies and procedures in place to address the requirements identified in the Act
regarding management of its charge card programs. Also, SSA has additional internal controls in
place to assist in oversight of its purchase and travel card programs.

For the period October 1, 2011 through June 30, 2013, the Agency reported there were no
delinquent accounts or disciplinary actions pertaining to the misuse of purchase cards. Although
we identified deficiencies during our prior audit of the purchase card program, the Agency
reported taking action to resolve the deficiencies. 27 We believe this demonstrates the Agency has
a process in place to minimize the risk of misuse of its purchase charge cards. Therefore, we
assess the risk of illegal, improper, and erroneous purchases made through SSA’s purchase card
program as “low.”

For the same period, the Agency reported there were delinquent travel card accounts, ranging
between 3 and 112, each month. In addition, staff reported disciplinary actions against



23
  Information provided by the Agency did not provide detail data allowing us to determine the specific number of
days accounts were delinquent. The information listed account delinquencies at least 30 days past due.
24
     SSA’s Travel Card Management Plan, 8 (2013).
25
     Id. Section 4.2.
26
     Inappropriate use of the travel card includes misuse, unauthorized use, delinquent payments, and inadvertent use.
27
 SSA OIG, The Social Security Administration’s Government Purchase Card Program (A-13-09-29027),
March 25, 2010.



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                                           7
42 employees for inappropriate use of their travel card during the period of October 1, 2011
through June 30, 2013. We will initiate an audit of SSA’s travel card program in FY 2014.




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                 8
                                      APPENDICES




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•     Reviewed the Government Charge Card Abuse Prevention Act of 2012. 1

•     Reviewed Office of Management and Budget Circular A-123, Appendix B- Improving the
      Management of Government Charge Card Programs. (Revised January 2009).

•     Reviewed Social Security Administration (SSA) policies and procedures related to charge
      cards.

•     Reviewed prior Office of the Inspector General reports.

•     Obtained and reviewed SSA’s Annual Charge Card Management Plans for 2012 and 2013.

•     Obtained and reviewed reports on delinquent charge card accounts for the period
      October 1, 2011 through June 30, 2013.

•     Obtained statistics on disciplinary actions against SSA employees for misuse of charge cards
      for the period October 1, 2011 through June 30, 2013.

•     Interviewed SSA representatives from the Offices of Acquisition and Grants and Financial
      Policy and Operations.

•     Obtained information about purchase and travel card misuse from the Office of the Inspector
      General, Office of Investigations.

The principle internal controls reviewed pertained to activities of the Office of the Deputy
Commissioner for Budget, Finance, Quality and Management. We conducted our risk
assessment in Baltimore, Maryland, from September through November 2013. We did not
validate computerized data used for our assessment; however, we determined the data were
sufficiently reliable given our objective, and the intended use of the data should not lead to
incorrect or unintentional conclusions. We conducted our assessment in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
and Evaluation.




1
    Pub. L. No. 112-194 §§ 2-4, 126 Stat. 1445-1451 (2012).



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                   A-1
Appendix B – REQUIREMENTS OF THE GOVERNMENT
                            C H ARGE C ARD ABUSE P REVENTION ACT OF
                            2012 FOR PURCHASE CARDS
The Government Charge Card Abuse Prevention Act of 2012 1 requires that executive agencies
that issue and use purchase cards establish and maintain safeguards and internal controls as
stated below.

•     There is a record in each executive agency of each holder of a purchase card issued by the
      agency for official use, annotated with the limitations on single transactions and total
      transactions that are applicable to the use of each such card or check by that purchase
      cardholder.

•     Each purchase cardholder and individual issued a convenience check is assigned an
      approving official other than the cardholder with the authority to approve or disapprove
      transactions.

•     The purchase cardholder and each official with authority to authorize expenditures charged to
      the purchase card are responsible for— reconciling the charges appearing on each statement
      of account for that purchase card with receipts and other supporting documentation; and
      forwarding a summary report to the certifying official in a timely manner of information
      necessary to enable the certifying official to ensure that the Federal Government ultimately
      pays only for valid charges that are consistent with the terms of the applicable Government
      wide purchase card contract entered into by the Administrator of General Services.

•     Any disputed purchase card charge, and any discrepancy between a receipt and other
      supporting documentation and the purchase card statement of account, is resolved in the
      manner prescribed in the applicable Government-wide purchase card contract entered into by
      the Administrator of General Services.

•     Payments on purchase card accounts are made promptly within prescribed deadlines to avoid
      interest penalties.

•     Rebates and refunds based on prompt payment, sales volume, or other actions by the agency
      on purchase card accounts are reviewed for accuracy and properly recorded as a receipt to the
      agency that pays the monthly bill.

•     Records of each purchase card transaction (including records on associated contracts, reports,
      accounts, and invoices) are retained in accordance with standard Government policies on the
      disposition of records.



1
    Pub. L. No. 112-194 §§ 2-4, 126 Stat. 1445-1451 (2012).



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                     B-1
•   Periodic reviews are performed to determine whether each purchase cardholder needs a
    purchase card.

•   Appropriate training is provided to each purchase cardholder and official with responsibility
    for overseeing the use of purchase cards issued by the executive agency.

•   The executive agency has specific policies regarding the number of purchase cards issued by
    various component organizations and categories of component organizations, the credit limits
    authorized for various categories of card holders, and categories of employees eligible to be
    issued purchase cards, and that those policies are designed to minimize the financial risk to
    the Government of the issuance of the purchase cards and to ensure the integrity of purchase
    card holders.

•   The executive agency uses effective systems, techniques, and technologies to prevent or
    identify illegal, improper, or erroneous purchases.

•   The executive agency invalidates the purchase card of each employee who—ceases to be
    employed by the agency, immediately upon termination of the employment of the employee;
    or transfers to another unit of the agency, immediately upon the transfer of the employee
    unless the agency determines that the units are covered by the same purchase card authority.

•   The executive agency takes steps to recover the cost of any illegal, improper, or erroneous
    purchase made with a purchase card or convenience check by an employee, including, as
    necessary, through salary offsets.




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                    B-2
Appendix C – REQUIREMENTS OF THE GOVERNMENT
                            C H ARGE C ARD ABUSE P REVENTION ACT OF
                            2012 FOR TRAVEL CARDS AND CENTRALLY
                            BILLED ACCOUNTS
The Government Charge Card Abuse Prevention Act of 2012 1 requires that executive agencies
that have employees who use travel charge cards and centrally billed accounts establish internal
control activities to ensure their proper, efficient, and effective use as stated below.

Travel Cards
•     There is record in each executive agency of each holder of a travel charge card issued on
      behalf of the agency for official use, annotated with the limitations on amounts that are
      applicable to the use of each such card by that travel charge cardholder.

•     Rebates and refunds based on prompt payment, sales volume, or other actions by the agency
      on travel charge card accounts are monitored for accuracy and properly recorded as a receipt
      of the agency that employs the cardholder.

•     Periodic reviews are performed to determine whether each travel charge cardholder has a
      need for the travel charge card.

•     Appropriate training is provided to each travel charge cardholder and each official with
      responsibility for overseeing the use of travel charge cards issued by the executive agency.

•     Each executive agency has specific policies regarding travel charge cards issued for various
      component organizations and categories of component organizations, the credit limits
      authorized for various categories of cardholders, and categories of employees eligible to be
      issued travel charge cards, and designs those policies to minimize the financial risk to the
      Government of the issuance of the travel charge cards and ensure the integrity of travel
      charge cardholders.

•     Each executive agency has policies to ensure its contractual arrangement with each travel
      charge card issuing contractor contains a requirement that the creditworthiness of an
      individual be evaluated before the individual is issued a travel charge card, and that no
      individual be issued a travel charge card if that individual is found not creditworthy as a
      result of the evaluation (except that this paragraph shall not preclude issuance of a restricted
      use, prepaid, declining balance, controlled-spend, or stored value card when the individual
      lacks a credit history or has a credit score below the minimum credit score established by the



1
    Pub. L. No. 112-194 §§ 2-4, 126 Stat. 1445-1451 (2012).



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                     C-1
    Director of the Office of Management and Budget). The Director of the Office of
    Management and Budget shall establish a minimum credit score for determining the
    creditworthiness of an individual based on rigorous statistical analysis of the population of
    cardholders and historical behaviors. Notwithstanding any other provision of law, such
    evaluation shall include an assessment of an individual’s consumer report from a consumer
    reporting agency as those terms are defined in section 603 of the Fair Credit Reporting Act
    (15 U.S.C. 1681a).

•   Each executive agency uses effective systems, techniques, and technologies to prevent or
    identify improper purchases.

•   Each executive agency ensures the travel charge card of each employee who ceases to be
    employed by the agency is invalidated immediately upon termination of the employment of
    the employee (or, in the case of a member of the uniformed services, upon separation or
    release from active duty or full-time National Guard duty).

•   Each executive agency shall ensure that, where appropriate, travel card payments are issued
    directly to the travel card-issuing bank for credit to the employee’s individual travel card
    account.

Centrally Billed Accounts
•   The executive agency shall ensure that officials with the authority to approve official travel
    verify that centrally billed account charges are not reimbursed to an employee.

•   The executive agency shall dispute unallowable and erroneous charges and track the status of
    the disputed transactions to ensure appropriate resolution.

•   The executive agency shall submit requests to servicing airlines for refunds of fully or
    partially unused tickets, when entitled to such refunds, and track the status of unused tickets
    to ensure appropriate resolution.




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                   C-2
Appendix D – STATUS OF THE SOCIAL SECURITY
             ADMINISTRATION’S CORRECTIVE ACTION ON
             PRIOR RECOMMENDATIONS
The Government Charge Card Abuse Prevention Act of 2012 1 states Offices of Inspector General
will report to the Director of the Office of Management and Budget 120 days after the end of
each fiscal year on agency progress in implementing audit recommendations, beginning with the
Fiscal Year 2013 submission due by January 31, 2014.

In March 2010, we issued a report on the Social Security Administration’s (SSA) charge card
program. 2 The objective of the review was to determine whether SSA’s oversight of its
Government purchase card program was effective.

In our 2010 report, we reported that SSA’s oversight of its Government purchase card program
needed improvement. We found that cardholders did not always comply with SSA’s policies
and procedures. Our testing of purchase card transactions found that 36 (72 percent) of
50 transactions reviewed (a) did not have adequate pre-approval documentation, (b) had no
evidence that the goods were received and accepted, and/or (c) had no documentation provided.
These transactions totaled about $8,300. In addition, for 12 (24 percent) of 50 possible split
purchases we examined, the cardholders circumvented their $3,000 single-purchase limit. These
purchases totaled about $61,000. We provided SSA four recommendations to address our
findings, and the Agency agreed with each. Below are our recommendations and actions SSA
took to address each.

1. Ensure cardholders comply with SSA policy and procedures on obtaining and maintaining
   adequate pre-approval documentation.

2. Remind cardholders to comply with SSA policy and procedures on obtaining and
   maintaining adequate receipt and acceptance of goods documentation.

3. Instruct cardholders to comply with SSA policy and procedures to prevent making split
   purchases.

4. Analyze purchase card data routinely to identify possible split purchases and take steps to
   ensure cardholders follow Agency policy.




1
    Pub. L. No. 112-194 §§ 2-4, 126 Stat. 1447 and 1450 (2012).
2
 SSA OIG, The Social Security Administration’s Government Purchase Card Program (A-13-09-29027),
March 25, 2010



Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                     D-1
Response to Recommendations
In October 2010, SSA’s Office of Acquisition and Grants (OAG) issued Acquisition Alert 10-12,
Office of Inspector General Audit – Micro-Purchase Reminders. The Alert addressed the
following topics: obtaining and maintaining both pre-approval documentation and evidence of
the receipt and acceptance of goods and avoiding split purchases. Also, SSA implemented
reviews of possible split purchases. When SSA discovers a split purchase, staff analyze the
circumstances and take appropriate action. This action may include a warning to the micro-
purchaser and approving official not to split purchases in the future or, if appropriate, suspension
or revocation of the employee’s micro-purchasing or approving authority. Repeated failure to
follow split purchase policy and procedures may result in administrative or disciplinary action.
In addition, SSA planned to test Citibank’s new reporting tool to determine whether it would
provide a more efficient and effective way to detect split purchases.

In Fiscal Year 2010, OAG sent Acquisition Management Review inquiries regarding possible
split purchases to 40 micro-purchasers covering 146 transactions. The review covered
determining whether the purchases were split and whether the micro-purchasers adhered to the
pre-award documentation requirements in the Micro Purchasing in SSA training course. If the
documentation reviews revealed the micro-purchasers did not follow the pre-award
documentation requirements, OAG disseminated decision emails to micro-purchasers and
approving officials that included: identifying the missing documentation and why purchases
were determined to be split purchases; citing applicable policy guidance not adhered to;
requiring the micro-purchasers to review the policy guidance cited in the email prior to making
future purchases; and requesting micro-purchasers to send an email confirming they reviewed the
applicable guidance. Once micro-purchasers completed their review and OAG received their
confirmation email, OAG closed the Acquisition Management Review.

SSA considered all four recommendations closed and implemented as of December 2010.




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)                  D-2
Appendix E – MAJOR CONTRIBUTORS
Shirley E. Todd, Director, Evaluation Division

Florence Wolford, Audit Manager

Nicole Gordon, Auditor-In-Charge




Fiscal Year 2013 Risk Assessment of SSA’s Charge Card Programs (A-13-14-14055)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
